TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Processes to Address Erroneous
                        Adoption Credits Result in Increased
                            Taxpayer Burden and Credits
                        Allowed to Nonqualifying Individuals



                                            June 13, 2012

                               Reference Number: 2012-40-065




  This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
   and information determined to be restricted from public release has been redacted from this document.



 Redaction Legend: 2(f) = Risk of Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                HIGHLIGHTS


PROCESSES TO ADDRESS                                documentation. Math error authority would have
ERRONEOUS ADOPTION CREDITS                          allowed the IRS to spend approximately
RESULT IN INCREASED TAXPAYER                        $1.9 million for other high-priority programs in
BURDEN AND CREDITS ALLOWED TO                       the Examination function.
NONQUALIFYING INDIVIDUALS                           Our review also found that, as of August 6,
                                                    2011, the IRS processed 94,092 tax returns with

Highlights
                                                    an Adoption Credit claim and found that
                                                    4,258 (4.5 percent) taxpayers received almost
                                                    $49.3 million in Adoption Credits without
Final Report issued on June 13, 2012                sufficient supporting documentation. Of these
                                                    4,258 taxpayers, TIGTA estimated that 953 tax
Highlights of Reference Number: 2012-40-065         returns claiming Adoption Credits totaling more
to the Internal Revenue Service Commissioner        than $11 million were erroneous.
for the Wage and Investment Division.
                                                    In addition, TIGTA found that 333 taxpayers who
IMPACT ON TAXPAYERS                                 had valid Adoption Credit claims totaling
                                                    $2 million had their Credits incorrectly
One of the challenges the IRS addresses each        suspended and their tax returns were referred to
year in processing tax returns is the               the Examination function. These taxpayers had
implementation of new tax law changes. The          previously provided documentation when they
passage of the Patient Protection and Affordable    applied for a Taxpayer Identification Number for
Care Act made the Adoption Credit refundable        a pending U.S. adoption.
for Tax Years 2010 and 2011. As of
December 23, 2011, the IRS had received             WHAT TIGTA RECOMMENDED
101,627 Adoption Credit claims totaling more
                                                    TIGTA recommended that the IRS develop a
than $1.2 billion for Tax Year 2010. Although
                                                    process to prevent taxpayers from receiving the
the Adoption Credit provides benefits to many
                                                    Adoption Credit when a foreign adoption is in
individuals who qualify, the unintended
                                                    process and to ensure that taxpayers identified
consequence of refundable credits is that they
                                                    as erroneously claiming the Adoption Credit are
are often the target of unscrupulous individuals
                                                    reviewed in the Examination function. The IRS
who file erroneous claims for these credits.
                                                    should also ensure that computer programming
WHY TIGTA DID THE AUDIT                             accurately excludes tax returns that list Adoption
                                                    Taxpayer Identification Numbers on Form 8839,
This audit was initiated because, for Tax           Qualified Adoption Expenses, and indicate the
Years 2010 and 2011, the Adoption Credit            adoption is in process so these taxpayers do not
became a refundable credit and the maximum          have their refunds erroneously suspended and
credit amount was increased to $13,170 per          delayed.
adopted child for Tax Year 2010. The overall
objective of this review was to assess the IRS’s    IRS management agreed and implemented
efforts to ensure the accuracy of Adoption Credit   corrective actions for all the recommendations.
claims for tax returns filed from January 1         The corrective actions included changing
through August 6, 2011.                             processing procedures, updating instructions,
                                                    and training employees to ensure erroneous
WHAT TIGTA FOUND                                    adoption benefits are identified when a foreign
                                                    adoption is in process. In addition, programming
The law did not provide and the IRS did not seek
                                                    changes were implemented for the 2012 Filing
math error authority for Adoption Credit claims
                                                    Season to prevent refund delays when an
that did not include sufficient documentation. As
                                                    Adoption Taxpayer Identification Number is
a result, 43,295 (42.6 percent) of the
                                                    used. Returns TIGTA identified for taxpayers
101,627 total Adoption Credit claims were
                                                    who potentially received erroneous adoption
referred to the IRS’s Examination function
                                                    credits were selected for examination, when
because of incomplete or missing
                                                    warranted.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 13, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Processes to Address Erroneous Adoption Credits
                             Result in Increased Taxpayer Burden and Credits Allowed to
                             Nonqualifying Individuals (Audit # 201140033)

 This report presents the results of our review to assess the Internal Revenue Service’s efforts to
 ensure the accuracy of Adoption Credit claims for tax returns filed from January 1 through
 August 6, 2011. This review was included in our Fiscal Year 2011 Annual Audit Plan and
 addresses the major management challenges of Implementing Health Care and Other Tax Law
 Changes, Erroneous and Improper Payments and Credits, and Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-5916 if you have questions or
 Randee Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.
                                  Processes to Address Erroneous Adoption Credits
                                  Result in Increased Taxpayer Burden and Credits
                                        Allowed to Nonqualifying Individuals




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Taxpayers Did Not Comply With Adoption Credit Documentation
          Requirements ................................................................................................ Page 6
          Processes Are Not Effective to Ensure Taxpayers Are
          Not Erroneously Receiving Adoption Credits .............................................. Page 8
                    Recommendation 1:........................................................ Page 12

                    Recommendations 2 and 3: ....................................................... Page 13

          Some Tax Returns With Valid Adoption Credit Claims
          Were Incorrectly Referred to the Examination Function .............................. Page 13
                    Recommendation 4:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measures............................................................... Page 20
          Appendix V – Types of Documentation Required for the
          Adoption Credit ............................................................................................ Page 23
          Appendix VI – Management’s Response to the Draft Report ...................... Page 25
        Processes to Address Erroneous Adoption Credits
        Result in Increased Taxpayer Burden and Credits
              Allowed to Nonqualifying Individuals




                 Abbreviations

ATIN       Adoption Taxpayer Identification Number
IRS        Internal Revenue Service
TIGTA      Treasury Inspector General for Tax Administration
TY         Tax Year
                              Processes to Address Erroneous Adoption Credits
                              Result in Increased Taxpayer Burden and Credits
                                    Allowed to Nonqualifying Individuals




                                               Background

The Adoption Credit (also referred to as the Credit) is a credit to offset qualified adoption
expenses, making adoption possible for some families who could not otherwise afford it. The
Adoption Credit was first created in the Small Business Job Protection Act of 1996,1 which
provided for a nonrefundable credit for adoption expenses not to exceed $5,000, or $6,000 for
children with special needs.2 The Patient Protection and Affordable Care Act,3 enacted on
March 23, 2010, made the Adoption Credit refundable4 and increased the maximum amount of
the Credit to $13,170 for Tax Year (TY)5 2010. Figure 1 shows the history of the Adoption
Credit from TYs 2002 through 2013.
             Figure 1: History of the Adoption Credit for TYs 2002 Through 2013
                                                                                          Allows the
                                                                                          Adoption
    Affected                                                                             Credit to be
      Tax                               Effects of the public law       Credit           indexed for
    Year(s)        Public Law           on the Adoption Credit         Maximum            inflation?      Refundability

    2002 –     Economic Growth          Temporarily increased        $10,000           Yes                Nonrefundable
    2009       and Tax Relief           the Adoption Credit
                                                                     (for TY 2002)     (by TY 2009,
               Reconciliation Act       maximum amount and
                                                                                       the Credit was
               of 2001 (EGTRRA)6        allows the Credit to be
                                                                                       $12,150)
                                        indexed for inflation.
    2010 –     Patient Protection       Increases the EGTRRA         $13,170           Yes                Refundable
    2011       and Affordable Care      Adoption Credit
                                                                     (for TY 2010)
               Act of 2010              maximum amount and
               (PPACA)                  makes the Credit
                                        refundable.



1
  Pub. L. No. 104-188, 110 Stat. 1755 (codified as amended in 19 U.S.C., 26 U.S.C., 29 U.S.C., and 42 U.S.C.).
2
  A child has special needs if the child is a U.S. citizen or resident, a State determines that the child cannot or should
not be returned to his or her parent’s home, and a State determines that the child probably will not be adopted unless
assistance is provided.
3
  Pub. L. No. 111-148 124 Stat. 119 (2010) (codified as amended in scattered sections of 18 U.S.C., 20 U.S.C.,
21 U.S.C., 25 U.S.C., 26 U.S.C., 28 U.S.C., 29 U.S.C., 30 U.S.C., 31 U.S.C., 35 U.S.C., and 42 U.S.C.).
4
  A refundable credit is not limited to the amount of an individual’s tax liability and can result in a Federal tax
refund that is larger than the amount of a person’s Federal income tax withholding for that year. In contrast, a
nonrefundable credit can only reduce the tax liability to zero.
5
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
6
  Pub. L. No. 107-16, 115 Stat. 38 (codified as amended in scattered sections of 26 U.S.C.).
                                                                                                                  Page 1
                                Processes to Address Erroneous Adoption Credits
                                Result in Increased Taxpayer Burden and Credits
                                      Allowed to Nonqualifying Individuals



                                                                                      Allows the
                                                                                      Adoption
     Affected                                                                        Credit to be
       Tax                               Effects of the public law     Credit        indexed for
     Year(s)            Public Law       on the Adoption Credit       Maximum         inflation?       Refundability

     2012         Tax Relief,            Extends the EGTRRA          $12,170 +      Yes                Nonrefundable
                  Unemployment           Adoption Credit (Not the
                                                                     (will be
                  Insurance              PPACA Adoption
                                                                     indexed for
                  Reauthorization, and   Credit) provisions for an
                                                                     inflation)
                  Job Creation Act of    additional year.
                  20107
     2013         N/A                    Adoption Credit reverts  $6,000, only     No                 Nonrefundable
     and                                 to pre-EGTRRA levels.    available for
     beyond                                                       special-needs
                                                                  adoptions
    Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of the history of the Adoption
    Credit.

Figure 2 shows the number of taxpayers claiming the Adoption Credit and the amounts claimed
for TYs 2008 through 2010.
        Figure 2: Total Claims for the Adoption Credit for TYs 2008 Through 2010
      Tax Year           Taxpayers Claiming Adoption Credit                   Adoption Credit Claimed
         2008                              86,646                                    $359.7 million
         2009                              84,297                                    $339.2 million
              8
        2010                           101,627                                          $1.2 billion
    Source: Internal Revenue Service (IRS) tax return volumes for TYs 2008, 2009, and 2010.

Generally, an individual may qualify for the Adoption Credit if he or she adopted a child and
paid qualified expenses relating to the adoption. Qualified adoption expenses are reasonable and
necessary adoption fees that include court costs, attorney fees, traveling expenses (including
amounts spent for meals and lodging while away from home), and other expenses directly related
to the legal adoption of an eligible child. If the individual attempts to adopt a child within the
United States, he or she may be able to claim the Credit even if the adoption does not become
final. If the adopted child is a U.S. citizen or resident of the United States and has special needs,
the individual may qualify for the full amount of the Adoption Credit once the adoption is final,
even if he or she paid few or no adoption-related expenses.



7
    Pub. L. No. 111-312, 124 Stat. 3296.
8
    Through December 2011.
                                                                                                             Page 2
                             Processes to Address Erroneous Adoption Credits
                             Result in Increased Taxpayer Burden and Credits
                                   Allowed to Nonqualifying Individuals



Tax law requires individuals to provide a valid identification number on their tax return for any
child being claimed for the Adoption Credit. Individuals who are unable to obtain a Social
Security Number for the child at the time they file their tax return can request an Adoption
Taxpayer Identification Number (ATIN) from the IRS. The ATIN is a temporary identification
number issued by the IRS for a child in a domestic adoption when the adopting taxpayers do not
have or are unable to obtain the child’s Social Security Number. The ATIN can be used by the
adopting taxpayers on their Federal income tax return to identify the child while the final
adoption is pending.
Process for Claiming the Adoption Credit and Income Exclusion for Employer-Provided
Adoption Benefits
To claim the Credit, taxpayers must file a Form 8839, Qualified Adoption Expenses, with their
tax return. In addition to the Form 8839, taxpayers are required to attach specific
adoption-related documentation. The IRS requires different documents based on whether the
adoption is foreign or domestic, final or not final, and of a child with special needs or not.
Appendix V provides examples of the types of acceptable documentation that a taxpayer can
provide to the IRS. Figure 3 summarizes when a taxpayer may claim benefits for the Adoption
Credit.
             Figure 3: When a Taxpayer May Claim Adoption Credit Benefits

                          Adopting a child who is a U.S. citizen or resident
    IF the taxpayer pays qualifying expenses in...           THEN the taxpayer takes the Credit in…

     Any year before the year the adoption is final.           The year after the year of the payment.

             The year the adoption is final.                       The year the adoption is final.

      Any year after the year the adoption is final.                 The year of the payment.



                                           Adopting a foreign child
    IF the taxpayer pays qualifying expenses in…             THEN the taxpayer takes the Credit in…

     Any year before the year the adoption is final.                The year the adoption is final.

             The year the adoption is final.                        The year the adoption is final.

      Any year after the year the adoption is final.                  The year of the payment.
Source: IRS guidance in the instructions for completing Form 8839 for TY 2010.




                                                                                                         Page 3
                             Processes to Address Erroneous Adoption Credits
                             Result in Increased Taxpayer Burden and Credits
                                   Allowed to Nonqualifying Individuals



Individuals Can Exclude Employer-Provided Adoption Benefits From Income
In addition to the Adoption Credit, individuals who receive assistance from their employers
under a Qualified Adoption Assistance Program9 to pay adoption expenses may exclude up to
$13,170 from their gross income. Special rules apply for foreign adoptions. Figure 4 shows the
number of taxpayers claiming the employer-provided adoption benefit exclusion from income
and the total amount claimed per year for TYs 2007 through 2009.
            Figure 4: Employer-Provided Adoption Benefit Exclusion Claimed
                                              Taxpayers Claiming the
                                            Employer-Provided Adoption
                Tax Year                         Benefit Exclusion                  Total Exclusion Claimed

                  2009                                    3,745                            $23 million

                  2008                                    4,190                            $25 million

                  2007                                    4,276                            $23 million
Source: TIGTA analysis of taxpayers with employer-provided adoption benefit exclusions.

Therefore, an individual may exclude up to $13,170 of employer-paid adoption expenses from
gross income and also claim a Credit of $13,170 for qualified adoption expenses paid
out-of-pocket. The types of expenses paid by the taxpayer’s employer are the same types of
expenses that the taxpayer paid, which are those expenses directly related to the adoption of an
eligible child. The difference is in the source of the payment for those expenses. The taxpayer
claims the Credit for expenses paid out-of-pocket, but claims the exclusion from income for
amounts paid to the taxpayer or for the taxpayer by his or her employer under a Qualified
Adoption Assistance Program. Figure 5 summarizes when a taxpayer can exclude
employer-provided adoption benefits from income.
                    Figure 5: When a Taxpayer May Claim Expenses for
                           Employer-Provided Adoption Benefits

                          Adopting a child who is a U.S. citizen or resident
       IF the taxpayer’s employer pays for qualifying         THEN the taxpayer takes the exclusion in…
    expenses under an adoption assistance program in…

                         Any year.                                      The year of the payment.




9
 A Qualified Adoption Assistance Program is a separate written plan set up by an employer to provide adoption
assistance to its employees.
                                                                                                         Page 4
                            Processes to Address Erroneous Adoption Credits
                            Result in Increased Taxpayer Burden and Credits
                                  Allowed to Nonqualifying Individuals



                                          Adopting a foreign child
      IF the taxpayer’s employer pays for qualifying         THEN the taxpayer takes the exclusion in…
   expenses under an adoption assistance program in…

      Any year before the year the adoption is final.                The year the adoption is final.

              The year the adoption is final.                        The year the adoption is final.

       Any year after the year the adoption is final.                  The year of the payment.
Source: IRS guidance in the instructions for completing Form 8839 for TY 2010.

This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Submission Processing function offices in Lanham, Maryland, and
Cincinnati, Ohio; and the Submission Processing Sites in Kansas City, Missouri, and
Austin, Texas, during the period July 2011 through January 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                                       Page 5
                             Processes to Address Erroneous Adoption Credits
                             Result in Increased Taxpayer Burden and Credits
                                   Allowed to Nonqualifying Individuals




                                       Results of Review

Taxpayers Did Not Comply With Adoption Credit Documentation
Requirements
The IRS recognized that the provision in the law
which made the Adoption Credit refundable could              As of December 23, 2011, the
increase the risk of erroneous claims. Although the        IRS received 101,627 tax returns
                                                             with Adoption Credit claims
Adoption Credit provides benefits to many                   totaling more than $1.2 billion.
individuals who qualify, the unintended consequence
of refundable credits is that they are often the target
of unscrupulous individuals who file erroneous claims for these credits. In particular, refundable
tax credits present an additional avenue for individuals to commit filing fraud. Recognizing the
increased risk for erroneous claims, the IRS requires taxpayers to file a paper tax return when
claiming the Adoption Credit. Each paper tax return must have a Form 8839 attached and will
be reviewed by an IRS employee to ensure the documentation supporting the Adoption Credit is
valid and supports the Credit claimed.
In addition, the IRS also developed computer programming to ensure that:
        Taxpayers are not allowed to claim more than the maximum $13,170 in Adoption Credit
         expenses for each individual child for TY 2010.
        Taxpayers are not allowed to claim the Credit or the Credit is reduced if their modified
         adjusted gross income exceeded a certain level.10
        Tax returns with an Adoption Credit claim are sent to the Examination function and the
         Adoption Credit portion of the tax refund is frozen on tax returns that were selected for
         audit using pre-refund filters. Some of these tax returns indicated that ****2(f)********
         **********************************2(f)**********************************
         ***************************2(f)********************************.
Although the IRS requires taxpayers to attach documentation to their tax returns supporting
Adoption Credit claims, it does not have the math error authority to deny the Credit if
documentation is not provided. Without this authority, the IRS cannot deny the Credit during



10
  Modified adjusted gross income is adjusted gross income modified for certain foreign income exclusions, the
adoption benefit exclusion, the deduction for tuition and fees, the deduction for student loan interest, and the
deduction for domestic production activities.
                                                                                                             Page 6
                          Processes to Address Erroneous Adoption Credits
                          Result in Increased Taxpayer Burden and Credits
                                Allowed to Nonqualifying Individuals



processing of the tax return, but must instead deny the Credit post-processing through the
examination process, thereby increasing the burden for the taxpayer and the costs to the IRS.
On October 29, 2010, we recommended the IRS work with the Department of the Treasury to
seek legislation from Congress for math error authority (authority to deny Adoption Credit
claims at the time a tax return is processed if required documentation was not provided). The
intent of our recommendation was to reduce burden and costs associated with those tax returns
for which the required documentation supporting the Adoption Credit was not provided. The
IRS did not agree with our recommendation and responded that it had developed and
implemented sufficient filters and compliance tools to handle potential Adoption Credit fraud.
We again included this recommendation in our September 2011 Filing Season11 report.12 IRS
management agreed with this recommendation.
Math error processing would have allowed the IRS to deny claims without required
documentation at the time the tax return was processed, which is less burdensome on taxpayers
than the post-processing examinations. For example, using math error processing, taxpayers
would have been notified of the denial of the Adoption Credit during the processing of their tax
return and informed that they could provide the IRS with the necessary documentation in support
of their eligibility. The IRS has a goal to resolve these responses within 30 calendar days of
receipt of the information supporting the taxpayer’s disagreement with the adjustment. In
contrast, the IRS estimates that it takes 55 calendar days to work a piece of correspondence
related to an Adoption Credit claim under review by its Examination function.
In addition to reducing taxpayer burden, math error authority would have made almost
$1.9 million available for other high-priority work in the Examination function. The IRS
estimates the average direct cost to work Adoption Credit claims without valid documentation
was about $22.83 per hour and estimates the average time to work an Adoption Credit claim was
2.7 hours. As of December 2011, the IRS received 101,627 tax returns with Adoption Credit
claims totaling more than $1.2 billion. Of the 101,627 Adoption Credit claims,
43,295 (42.6 percent) were referred to the IRS’s Examination function because of incomplete or
missing documentation in support of the Adoption Credit claim. As of December 2011,
30,236 of the 43,295 claims sent to the Examination function were closed with the IRS’s
determination that the taxpayer was entitled to receive the Adoption Credit. The IRS is
continuing to process claims without valid documentation in the 2012 Filing Season in the same
manner.
The refundability of the Adoption Credit expired December 31, 2011, and, as of the date of this
report, has not been extended by law. However, if the refundability of the Adoption Credit is
extended, we believe the IRS should work with the Department of the Treasury to seek the

11
  The period from January through mid-April when most individual income tax returns are filed.
12
  TIGTA, Ref. No. 2011-40-128, The Passage of Late Legislation and Incorrect Computer Programming Delayed
Refunds for Some Taxpayers During the 2011 Filing Season (Sept. 2011).
                                                                                                   Page 7
                            Processes to Address Erroneous Adoption Credits
                            Result in Increased Taxpayer Burden and Credits
                                  Allowed to Nonqualifying Individuals



necessary legal authority to deny claims without required documentation at the time the tax
return is processed.

Processes Are Not Effective to Ensure Taxpayers Are Not
Erroneously Receiving Adoption Credits
Our review identified 94,092 tax returns processed through August 6, 2011, with an Adoption
Credit claim and found 4,258 (4.5 percent) taxpayers received almost $49.3 million13 in Adoption
Credits that were not supported by documentation. Of this, we estimate that 953 tax returns
claiming Adoption Credit totaling more than $11 million are erroneous.

Adoption Credits were issued for adoptions of foreign children that were not
finalized
Our review identified 187 taxpayers who received almost $2.3 million in potentially erroneous
Adoption Credits. Applying the percentage of cases the IRS ultimately identified as not
qualifying, potentially erroneous Adoption Credit claims total almost $390,000.14 These
taxpayers claimed a foreign adoption that was not final, which does not qualify for the Adoption
Credit. The Internal Revenue Code15 states that if the adopted child is not a U.S. citizen or
resident, the taxpayer cannot take the Adoption Credit or exclude employer-provided adoption
benefits from gross income until the adoption becomes final. The IRS did not develop computer
programming to identify these tax returns and send them to its Examination function for review.
We alerted IRS management on November 16, 2011, that taxpayers were erroneously receiving
the Adoption Credit for foreign adoptions that were not finalized. We recommended computer
programming be implemented to prevent taxpayers from erroneously receiving the Adoption
Credit when a foreign adoption is in process. The IRS responded that it would review the
187 tax returns to determine if the taxpayers incorrectly indicated on their tax return that the
adoption was in process yet provided valid documentation indicating the foreign adoption was
final. The tax returns that meet examination criteria will be referred for a post-refund audit. In
addition, the IRS stated it will review the procedures and training guides to ensure the guidance
provided to tax examiners is clear regarding the requirement for a foreign adoption to be final
and valid documentation be attached for confirmation.



13
   Consists of 187 taxpayers who received almost $2.3 million in Adoption Credits for foreign adoptions that were
not finalized, 175 taxpayers who received almost $1.6 million in Adoption Credits even though the IRS determined
the documentation was not sufficient to support the Adoption Credit claim, and 3,896 taxpayers who received
almost $45.4 million in Adoption Credits but did not provide valid documentation.
14
   The IRS has reviewed 76 of the 187 cases and determined that taxpayers provided valid documentation to support
the Adoption Credit claim in 63 cases (a 17 percent error rate).
15
   I.R.C. § 36C(e).
                                                                                                         Page 8
                             Processes to Address Erroneous Adoption Credits
                             Result in Increased Taxpayer Burden and Credits
                                   Allowed to Nonqualifying Individuals



Erroneous adoption expense exclusions were allowed for adoptions of foreign
children that were not finalized
Our review identified 122 taxpayers erroneously claiming $733,702 as an exclusion from their
income for employer-provided adoption benefits relating to a foreign child adoption that was not
finalized. Applying the percentage of cases the IRS ultimately identified as not qualifying,
potentially erroneous Adoption Expense Exclusion claims total $169,000.16 The IRS does not
have controls in place to ensure that adoptions are finalized when taxpayers claim an exclusion
from income for foreign adoptions. As a result of erroneously claiming an exclusion from
income, these taxpayers incorrectly reduced their income and their tax obligation. We estimate
the potential tax effect of overstating their income exclusion is $25,350 in taxes not paid.17
Instructions in the TY 2010 Form 8839 state that individuals adopting a foreign child are not
allowed to claim an adoption expense exclusion until the adoption becomes final. Therefore, in
the years adoption assistance is received before the foreign adoption is final, the taxpayer must
add the benefit received to his or her wages. In the year the foreign adoption becomes final, the
taxpayer may exclude the total employer-provided adoption benefit received over the time period
of the adoption.
We alerted the IRS on January 11, 2012, and recommended that it revise procedures to ensure
tax examiners verify taxpayers are not claiming an employer-provided adoption benefit
exclusion from income for the adoption of a foreign child when the adoption has not been
finalized. We also recommended the income exclusion claims for the 122 taxpayers be corrected
and the amount of the benefit that was excluded from income be added back to income. The IRS
responded that 103 of the 122 tax returns had already been referred to the Examination function.
The IRS stated that the remaining tax returns either had reasons exempting them from being sent
to the Examination function or the taxpayers had included adoption documentation that
demonstrated the adoptions were final but had neglected to indicate this on the tax return. The
IRS stated it would revise procedures for reviewing Adoption Credit claims to allow specialized
IRS employees reviewing adoption documentation to accept the adoption documentation if it
showed the adoption was final even if the taxpayer neglected to identify the adoption as being
finalized.




16
   The IRS has reviewed 101 of the 122 cases and determined that the taxpayers’ claims were valid in 78 cases
(a 23 percent error rate).
17
   The majority of the 122 cases we identified had taxable income with a marginal tax rate of 15 percent. As a
result, we used a 15 percent marginal tax rate to estimate the amount of taxes that were not paid as a result of
erroneous income exclusions.
                                                                                                              Page 9
                            Processes to Address Erroneous Adoption Credits
                            Result in Increased Taxpayer Burden and Credits
                                  Allowed to Nonqualifying Individuals



Incorrect programming resulted in Adoption Credit claims without required
documentation not being sent to the Examination function
Our review identified 175 taxpayers who received almost $1.6 million in Adoption Credits even
though the IRS identified that these taxpayers did not include required documentation with their
tax return in support of the Credit. The Adoption Credit portion of the tax refund was not frozen,
and the tax returns were not referred to the Examination function as required. IRS procedures
require taxpayers to attach supporting adoption documentation to their tax return substantiating
the Adoption Credit claim. If the taxpayer does not attach the required documentation, the
portion of the tax refund associated with the Adoption Credit is frozen and the tax return is
referred to the Examination function. These 175 tax returns were unable to be processed for
reasons other than the lack of required documentation to support the Adoption Credit claims and
were sent to the IRS’s Unpostable Unit. Once the condition that prevented the processing of the
tax returns was corrected, processes were not in place to ensure these tax returns were then sent
to tax examiners to review the Adoption Credit claims.
We alerted IRS management on October 31, 2011, that taxpayers were erroneously receiving the
Adoption Credit without valid supporting documentation. We recommended that the IRS
correspond with the taxpayers we identified as not qualified for the Adoption Credit to request
that they provide valid adoption documentation. If the taxpayer does not provide the
documentation, we recommended the IRS initiate recovery actions for the erroneous Adoption
Credits refunded. The IRS responded that it had corrected the programming that caused the
error. The 175 tax returns are being referred to the Examination function for consideration for
post-refund examination.
After applying the rate (22.6 percent)18 at which the Examination function review of the cases
ultimately results in the taxpayer providing adequate documentation and receiving the Credit, we
estimate that 40 tax returns claiming Adoption Credits totaling approximately $358,000 are
erroneous.

Tax examiners are not always ensuring required documentation is provided in
support of Adoption Credit claims
Our review of statistically valid samples identified that 49 taxpayers erroneously received
$563,215 in Adoption Credits. We estimate 3,896 taxpayers received $45.4 million in Adoption
Credits but did not provide sufficient documentation to support their claims. After applying the
rate (22.6 percent) in which the IRS Examination function review of the cases ultimately resulted
in the taxpayer providing adequate documentation and receiving the Credit, we estimate that
881 tax returns claiming Adoption Credits totaling almost $10.3 million are erroneous.

18
  The IRS reported that in 30,270 (77.4 percent) of the 39,104 cases reviewed in the Examination function because
of inadequate documentation, taxpayers subsequently provided valid documentation to support the Adoption Credit
claim. As such, the error rate was 22.6 percent.
                                                                                                         Page 10
                     Processes to Address Erroneous Adoption Credits
                     Result in Increased Taxpayer Burden and Credits
                           Allowed to Nonqualifying Individuals



   Tax examiners incorrectly closed cases with inadequate documentation. Our review of
    a statistically valid sample of 108 tax returns referred to the Examination function
    identified six (5.5 percent) tax returns in which the Examination function incorrectly
    allowed the taxpayer to receive a refund of the Adoption Credit, even though the taxpayer
    had not provided sufficient documentation to support the claim. Tax examiners did not
    adequately review documentation to ensure the documentation supported the Adoption
    Credit claims. These six taxpayers erroneously received $69,809 in Adoption Credits.
    As of August 6, 2011, there were 53,510 tax returns referred to the Examination function
    because of insufficient documentation. We estimate that 1,647 taxpayers received almost
    $19.2 million in Adoption Credits but had not provided sufficient documentation to
    support the claims.
    IRS procedures for the Examination function require a letter be sent to the taxpayer
    requesting required documentation to support the Adoption Credit claim. Any additional
    documentation provided by the taxpayer is to be reviewed to determine if the information
    supports the Adoption Credit claim. If the documentation is sufficient, the Adoption
    Credit portion of the taxpayer’s refund is allowed to be released to the taxpayer. If the
    documentation is not sufficient, the Adoption Credit is not allowed. For the six
    taxpayers’ claims we identified as erroneous, tax examiners did not ensure required
    documentation was provided supporting the adoption of all children claimed for the
    Adoption Credit on the individual’s tax return.
   Tax examiners did not ensure required documentation was provided with originally
    filed tax returns supporting children as special-needs. Our review of a statistically valid
    sample of 105 tax returns in which the taxpayer claimed the Adoption Credit for a
    special-needs child identified 21 (20 percent) tax returns with insufficient documentation
    supporting that the child was a special-needs child. These 21 taxpayers erroneously
    received $254,271 in Adoption Credits. As of August 6, 2011, there were 7,161 tax
    returns with Adoption Credit claims for a special-needs child. We estimate that
    1,432 taxpayers received about $17.3 million in Adoption Credits but did not provide
    sufficient documentation supporting that the children were special-needs children.
    Notice 2010-66, Refundable Adoption Credit, requires taxpayers claiming the Adoption
    Credit for the adoption of a special-needs child to provide documentation supporting the
    adoption and documentation supporting that the child has been certified by the State as
    special-needs. For the 21 tax returns we determined may be erroneous, the required
    documentation to support the Adoption Credit claim (10 tax returns) or special-needs
    certification (11 tax returns) was not attached.
   Tax examiners did not ensure required documentation was provided with amended tax
    returns supporting Adoption Credit claims. Our review of a statistically valid sample of
    100 amended tax returns with an Adoption Credit claim identified that for 22 (22 percent)
    of the tax returns, the required documentation was not provided in support of the claim.

                                                                                       Page 11
                           Processes to Address Erroneous Adoption Credits
                           Result in Increased Taxpayer Burden and Credits
                                 Allowed to Nonqualifying Individuals



        These 22 taxpayers erroneously received $239,135 in Adoption Credits. As of
        August 6, 2011, the IRS received 3,712 amended tax returns with a claim for the
        Adoption Credit. We estimate that 817 taxpayers received almost $8.9 million in
        Adoption Credits but did not provide the required documentation in support of the claims.
        Notice 2010-66 requires taxpayers claiming the Adoption Credit to provide
        documentation supporting the adoption. If the adoption is of a special-needs child, the
        taxpayer must also provide documentation supporting that the child has been certified by
        the State as special-needs. IRS procedures for the Accounts Management function were
        not updated to instruct tax examiners to review the Adoption Credit documentation when
        a claim is included with an amended tax return. In the 22 tax returns with potentially
        erroneous claims, the required documentation to support the Adoption Credit claim
        (17 tax returns) or special-needs certification (five tax returns) was not attached.
We alerted the IRS on January 6, 2012, of the results of our three statistical samples and
recommended the IRS revise its procedures for the Adoption Credit to ensure that tax examiners
verify that adoption documentation and special-needs certifications are adequate to support the
Adoption Credit claim. In addition, we recommended that the IRS conduct training for the tax
examiners to emphasize requirements for adoption documentation and special-needs certification
documentation during the screening process.
IRS management responded that they had reviewed the Internal Revenue Manuals and training
guides and are revising the procedures for Fiscal Year19 2012 processing of tax returns including
amended tax returns with Adoption Credit claims. Management noted that the revision in
procedures will ensure all tax returns that have final adoption documentation and special-needs
certification documentation are sent to Examination function screeners who have received
extensive tax law training and have access to examples of special-needs certificates for different
States. In addition, yearly training sessions and weekly calls throughout the filing season will be
held.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a process to ensure that taxpayers do not erroneously receive
the Adoption Credit and/or the Adoption Expense Exclusion when a foreign adoption is
in process.
        Management’s Response: IRS management agreed with this recommendation.
        Procedures have been implemented to require that all returns with attached adoption


19
 A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                   Page 12
                              Processes to Address Erroneous Adoption Credits
                              Result in Increased Taxpayer Burden and Credits
                                    Allowed to Nonqualifying Individuals



           documents and with any box checked in Part 1 of Form 8839 are reviewed by
           Examination function classifiers. The classifiers will apply the appropriate coding to the
           Form 8839 based on their review of the form and supporting documentation. The
           Internal Revenue Manual for the Submission Processing function was updated prior to
           the start of the 2012 Filing Season. Training was also provided to examiners, as part of
           the 2012 Filing Season preparation activities, to reinforce the classification procedures
           and documentation requirements for each type of adoption.

Recommendation 2: Ensure the 187 taxpayers the TIGTA identified who received almost
$2.3 million in potentially erroneous Adoption Credits for adoptions of foreign children are
reviewed in the Examination function.

           Management’s Response: IRS management agreed with this recommendation. The
           returns of the 187 taxpayers identified by the TIGTA were reviewed and, when
           warranted, were selected for examination.
Recommendation 3: Ensure the 175 taxpayers the TIGTA identified who received almost
$1.6 million in potentially erroneous Adoption Credits without required documentation to
support the claim are reviewed in the Examination function.
           Management’s Response: IRS management agreed with this recommendation. The
           returns of the 175 taxpayers identified by the TIGTA were reviewed and, when
           warranted, were selected for examination.

Some Tax Returns With Valid Adoption Credit Claims Were Incorrectly
Referred to the Examination Function
Our review identified 333 taxpayers who had valid Adoption Credit claims totaling $2 million;
however, their Adoption Credits were suspended and their tax returns were incorrectly referred
to the Examination function. Of these, 286 taxpayers subsequently received their previously
frozen Adoption Credits.20 These taxpayers waited from five weeks to more than 25 weeks to
receive the tax refund of their Adoption Credits.
IRS instructions state that individuals who provide an ATIN as an identification number for the
child to be adopted are not required to attach documentation for domestic adoptions that have not
been finalized. The IRS exempts these individuals from the documentation requirement because
when the taxpayer submits Form W-7A, Application for Taxpayer Identification Number for
Pending U.S. Adoptions, the taxpayer must also submit documentation to prove that the child
was placed with the taxpayer for legal adoption by an authorized adoption agency. These
333 taxpayers included an ATIN as the adopted child’s identifying number instead of attaching


20
     As of January 6, 2012.
                                                                                              Page 13
                        Processes to Address Erroneous Adoption Credits
                        Result in Increased Taxpayer Burden and Credits
                              Allowed to Nonqualifying Individuals



adoption documentation, and their tax returns were incorrectly referred to the Examination
function.
IRS programming was not working as intended, resulting in the incorrect identification and
referral of these tax returns to the Examination function. We alerted the IRS on October 3, 2011,
and recommended that the computer programming be corrected to not select tax returns when a
domestic adoption is in process and the taxpayer provides an ATIN (which indicates that
documentation has already been provided). IRS management responded that they appreciated
the opportunity to reduce taxpayer burden and had already requested programming updates to
address our concern.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Ensure computer programming accurately excludes tax returns that list
an ATIN(s) on Form 8839 and indicate the adoption is in process with no documentation
attached to support the Adoption Credit claim so these taxpayers do not have their refunds
erroneously suspended and delayed.
       Management’s Response: IRS management agreed with this recommendation. In
       reviewing the disposition of returns selected, the IRS recognized the need to modify
       programming to exclude from selection any return where: only an ATIN is shown on
       Form 8839, the adoption is in process, and the only issue on the tax return is no
       documentation attached to support the Adoption Credit claim. Programming changes
       were implemented on January 3, 2012, in preparation for the 2012 Filing Season.




                                                                                         Page 14
                            Processes to Address Erroneous Adoption Credits
                            Result in Increased Taxpayer Burden and Credits
                                  Allowed to Nonqualifying Individuals



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’s efforts to ensure the accuracy of
Adoption Credit claims. To accomplish our objective, we:
I.      Determined if the process the IRS has in place for identifying and reviewing Adoption
        Credit claims effectively ensures accuracy of these claims.
        A. Performed computer analysis1 on TY2 2010 tax returns claiming the Adoption Credit
           processed from January 1 through August 6, 2011, to determine if the tax returns
           contained Adoption Credit documentation.
        B. Assessed the effectiveness of the IRS’s procedures/processes for determining whether
           a tax return contained the appropriate Adoption Credit documentation.
             1. Identified 39,132 tax returns the IRS determined had valid documentation
                supporting the Adoption Credit claim. We reviewed a statistically valid sample of
                105 tax returns from 7,161 tax returns identified as of August 6, 2011, that
                allowed the Adoption Credit and the taxpayer indicated the adoption was for a
                special-needs child to determine if the claim was accurate. Our sampling criteria
                included a confidence level of 90 percent, a desired precision rate of ±5 percent,
                and an estimated error rate equal to 10 percent. We projected the results of the
                statistical sample to the population.
             2. Identified 3,712 amended tax returns the IRS determined had valid documentation
                supporting the Adoption Credit claim and reviewed a statistically valid sample of
                100 tax returns. Our sampling criteria included a confidence level of 90 percent, a
                desired precision rate of ±5 percent, and an estimated error rate equal to
                10 percent. We projected the results of the statistical sample to the population.
        C. Identified 187 taxpayers claiming $2,293,782 in Adoption Credits who claimed a
           foreign child and did not indicate the adoption was final.



1
  To assess the reliability of computer-processed data, programmers in the TIGTA Office of Strategic Data Services
validated the data that were extracted and we verified the data with appropriate documentation. Judgmental samples
were reviewed to ensure that the amounts presented were supported by external sources. As appropriate, data were
compared to the physical tax returns to verify that the amounts were supported.
2
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 15
                        Processes to Address Erroneous Adoption Credits
                        Result in Increased Taxpayer Burden and Credits
                              Allowed to Nonqualifying Individuals



       D. Identified 175 tax returns claiming $1,585,892 in Adoption Credits with
          invalid/incomplete documentation that were not correctly sent to the Examination
          function.
II.    Determined whether the Examination function correctly reviewed tax returns with
       Adoption Credit claims that did not have valid documentation.
       A. Determined if the Examination function correctly closed cases and allowed a refund
          of the Adoption Credit claimed.
          1. Identified 36,912 tax returns claiming the Adoption Credit that were sent to the
             Examination function and closed without a change to the Adoption Credit amount
             claimed on the tax return.
          2. Reviewed a statistically valid sample of 108 tax returns from 29,637 tax returns
             with invalid documentation identified as of August 6, 2011, that were worked in
             the Examination function and closed without a change to the amount of Adoption
             Credit claimed to determine the accuracy of the determination. Our sampling
             criteria included a confidence level of 90 percent, a desired precision rate of
             ±5 percent, and an estimated error rate equal to 10 percent. We projected the
             results of the statistical sample to the population.
       B. Assessed the timeliness of Adoption Credit claims worked by the Examination
          function by identifying the timeliness standards established by the Examination
          function and computing the average time for an Adoption Credit claim to be audited
          in the Examination function. This was calculated from the date the examination
          indicator was placed on the tax account to the time the adjustment was made or the
          Adoption Credit portion of the refund was released.
III.   Assessed the effectiveness of IRS processes to ensure the accuracy of taxpayers claiming
       an exclusion of employer-provided adoption benefits.
       A. Identified IRS processes for verifying the accuracy of taxpayer exclusions.
       B. Determined if taxpayers are properly claiming the exclusion from income of
          employer-provided adoption benefits.
          1. Identified 3,521 taxpayers claiming an exclusion of employer-provided adoption
             benefits from income.
          2. Matched records identified in Step III.B.1. to the Form W-2, Wage and Tax
             Statement, file to identify third-party data provided on the taxpayers’ Form W-2,
             Box 12, with code T and determined 307 taxpayers claimed $1,941,230 in
             exclusions from income but showed $0 in employer-provided adoption benefits
             on the Form W-2s.


                                                                                        Page 16
                        Processes to Address Erroneous Adoption Credits
                        Result in Increased Taxpayer Burden and Credits
                              Allowed to Nonqualifying Individuals



           3. Compared the exclusion of income claimed on the tax returns to the amounts
              reported on the Forms W-2, Box 12, with code T.
           4. Determined that 122 taxpayers claiming only foreign, in-process adoptions
              claimed $733,702 in exclusion from income. Taxpayers are not allowed to claim
              an exclusion from income for a foreign adoption until the adoption is final.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for changes in tax legislation such as the Adoption
Credit. We also evaluated the controls that are incorporated directly into computer applications
to help ensure the validity, completeness, and accuracy of transactions and data during
application processing of tax returns with this Credit.




                                                                                         Page 17
                       Processes to Address Erroneous Adoption Credits
                       Result in Increased Taxpayer Burden and Credits
                             Allowed to Nonqualifying Individuals



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Tina Parmer, Audit Manager
Kathleen Hughes, Lead Auditor
Linda Bryant, Senior Auditor
Denise Gladson, Auditor
Crystal Hamling, Audit Evaluator
Arlene Feskanich, Senior Information Technology Specialist
Brian Hattery, Senior Information Technology Specialist
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                    Page 18
                       Processes to Address Erroneous Adoption Credits
                       Result in Increased Taxpayer Burden and Credits
                             Allowed to Nonqualifying Individuals



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Media and Publications, Wage and Investment Division SE:W:CAR
Director, Return Integrity and Correspondence Services, Wage and Investment Division
SE:W:RICS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Earned Income Tax Credit, Wage and Investment Division SE:W:RICS:EITC
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operation Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPI:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 19
                            Processes to Address Erroneous Adoption Credits
                            Result in Increased Taxpayer Burden and Credits
                                  Allowed to Nonqualifying Individuals



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
For all of the outcomes listed in this Appendix, we conducted computer analyses of TY1 2010
individual income tax returns. The returns were processed by the IRS Submission Processing
sites between January 1 and August 6, 2011, and were posted to the Individual Master File.2

Type and Value of Outcome Measure:
   Inefficient Use of Resources – Potential; $1,863,773 per year which could be applied to other
    Examination function programs (see page 6).

Methodology Used to Measure the Reported Benefit:
During Fiscal Year3 2011, the IRS Examination function reviewed and closed 30,236 cases in
which the taxpayer claimed the Adoption Credit but did not provide appropriate documentation
and the case was closed without an additional tax assessment. The Examination function used
81,637 staff hours examining these cases. The IRS estimates the average direct cost to work
these cases was about $22.83 per hour. If the IRS received math error authority to disallow
Adoption Credit claims without proper documentation, $1,863,773 could be used for other
Examination function programs (81,637 X $22.83).

Type and Value of Outcome Measure:
   Cost Savings (Funds Put to Better Use) – Potential; 32 taxpayers erroneously received
    $389,943 in Adoption Credits (see page 8).

Methodology Used to Measure the Reported Benefit:
We identified 187 tax returns claiming a foreign adoption that was not final and there was no
change to the amount of Adoption Credit claimed during processing. The taxpayers received


1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                         Page 20
                            Processes to Address Erroneous Adoption Credits
                            Result in Increased Taxpayer Burden and Credits
                                  Allowed to Nonqualifying Individuals



potentially erroneous Adoption Credits totaling $2,293,782. These credits should not have been
allowed because the foreign adoption was still in process. Applying the rate (17 percent)4 in
which the Examination function review of the cases ultimately results in the taxpayer providing
adequate documentation and receiving the Credit, we estimate that 32 taxpayer claims totaling
$389,943 are erroneous.

Type and Value of Outcome Measure:
   Cost Savings (Funds Put to Better Use) – Potential; 40 taxpayers erroneously received
    $358,412 in Adoption Credits (see page 8).

Methodology Used to Measure the Reported Benefit:
Our review identified that 175 taxpayers whose tax returns either had no documentation or
invalid documentation were not sent to the Examination function, and the Adoption Credit was
not suspended. The IRS responded that these tax returns had prior processing problems that
were corrected by programming changes, allowing the tax returns to be processed. However, the
process in place at that time did not send the tax returns to the Examination function to address
the Adoption Credit claims. The 175 tax returns with Adoption Credits totaling $1,585,892 are
being referred to the Examination function for consideration for post-refund review. After
applying the rate (22.6 percent)5 in which the Examination function review of the cases
ultimately results in the taxpayer providing adequate documentation and receiving the Credit, we
estimate that 40 taxpayer claims totaling $358,412 are erroneous.

Type and Value of Outcome Measure:
   Cost Savings (Funds Put to Better Use) – Potential; 881 taxpayers received potentially
    erroneous Adoption Credits totaling $10,254,688 (see page 8).

Methodology Used to Measure the Reported Benefit:
Our review of statistically valid samples identified that 49 taxpayers erroneously received
$563,215 in Adoption Credits. We estimate that 3,896 taxpayers received $45,374,726 in
Adoption Credits but did not provide sufficient documentation to support their claims. After
applying the rate (22.6 percent) in which the IRS Examination function review of the cases
ultimately resulted in the taxpayer providing adequate documentation and receiving the Credit,
we estimate that 881 taxpayer claims totaling $10,254,688 are erroneous.


4
  The IRS has reviewed 76 of the 187 cases and determined that taxpayers provided valid documentation to support
the Adoption Credit claim in 63 cases, resulting in a 17 percent error rate.
5
  The IRS reported that in 30,270 (77.4 percent) of the 39,104 cases reviewed in the Examination function because
of inadequate documentation, taxpayers subsequently provided valid documentation to support the Adoption Credit
claim. This resulted in a 22.6 percent error rate.
                                                                                                         Page 21
                              Processes to Address Erroneous Adoption Credits
                              Result in Increased Taxpayer Burden and Credits
                                    Allowed to Nonqualifying Individuals



Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 333 taxpayers who claimed $2,069,654 in
    Adoption Credits for domestic adoptions that were not finalized and the ATINs were used for
    the adopted children on Form 8839, Qualified Adoption Expenses, were incorrectly sent to
    the Examination function delaying their tax refund (see page 13).

Methodology Used to Measure the Reported Benefit:
The 333 tax returns were sent to the Examination function in error. These tax returns should not
have gone to the Examination function because the child had an ATIN and the adoption was in
process. We analyzed the 333 tax returns from the date the Examination function indicator was
placed on the tax account to the time the adjustment was made or the Adoption Credit portion of
the tax refund was released. Of the 333 tax returns, 286 taxpayers who received a refund as of
January 6, 2012, waited from five weeks to more than 25 weeks to receive the refund of their
Adoption Credit. Of the remaining 47 taxpayers, 15 are still awaiting their tax refund.6




6
  The remaining 32 taxpayers had their refund applied to another tax liability or there are other issues on the tax
return.
                                                                                                              Page 22
                             Processes to Address Erroneous Adoption Credits
                             Result in Increased Taxpayer Burden and Credits
                                   Allowed to Nonqualifying Individuals



                                                                                                   Appendix V

                     Types of Documentation Required
                          for the Adoption Credit

Domestic and foreign adoptions that have been finalized
Domestic or foreign adoption finalized in the United States:
        An adoption order or decree.
Foreign adoption governed by the Hague Convention and finalized in another country:
        A Hague Adoption Certificate (Immigrating Child).
        An IH-3 visa.1
        A foreign adoption decree, translated into English.
Foreign adoption from a country that is not party to the Hague Convention:
        A foreign adoption decree, translated into English.
        An IR-22 or IR-3 visa.3
Domestic adoptions that are not final
        An ATIN, obtained by the taxpayer for the child, included on the taxpayer’s income tax
         return (instead of attaching a document).
        A home study completed by an authorized placement agency.
        A placement agreement with an authorized placement agency.
        A document signed by a hospital official authorizing the release of a newborn child from
         the hospital to the taxpayer for legal adoption.
        A court document ordering or approving the placement of a child with the taxpayer for
         legal adoption.

1
  Issued for children with full and final adoptions from a Hague Convention country.
2
  Issued to a child adopted by a U.S. citizen if the child immigrates to the United States while unmarried and before
his or her 21st birthday, or issued after the child’s 21st birthday, if he or she is treated under the Child Status
Protection Act (Pub. L. No. 107-208, 116 Stat. 927, (2002)) as if he or she were still under 21.
3
  Issued when a full and final adoption is completed abroad and requires that the parent(s) physically see the child
prior to or during the adoption proceedings.
                                                                                                             Page 23
                       Processes to Address Erroneous Adoption Credits
                       Result in Increased Taxpayer Burden and Credits
                             Allowed to Nonqualifying Individuals



     An original affidavit or notarized statement signed under penalties of perjury from an
      adoption attorney, government official, or other person, stating that the signor:
      o Placed or is placing a child with the taxpayer for legal adoption.
      o Is facilitating the adoption process for the taxpayer in an official capacity,
        summarizing the facilitation.
Adoptions of special-needs children
     In addition to the previously mentioned documentation, a taxpayer claiming the Adoption
      Credit for a child with special needs must attach a copy of the State determination of
      special needs.




                                                                                         Page 24
        Processes to Address Erroneous Adoption Credits
        Result in Increased Taxpayer Burden and Credits
              Allowed to Nonqualifying Individuals



                                                  Appendix VI

Management’s Response to the Draft Report




                                                          Page 25
Processes to Address Erroneous Adoption Credits
Result in Increased Taxpayer Burden and Credits
      Allowed to Nonqualifying Individuals




                                                  Page 26
Processes to Address Erroneous Adoption Credits
Result in Increased Taxpayer Burden and Credits
      Allowed to Nonqualifying Individuals




                                                  Page 27
Processes to Address Erroneous Adoption Credits
Result in Increased Taxpayer Burden and Credits
      Allowed to Nonqualifying Individuals




                                                  Page 28
Processes to Address Erroneous Adoption Credits
Result in Increased Taxpayer Burden and Credits
      Allowed to Nonqualifying Individuals




                                                  Page 29
